SEC’s Use of Justifications and
Approvals in Sole-Source
Contracting




                                  March 28, 2012
                                  Report No. 507
                                                      UNITED STATES

                               SECURITIES AND EXCHANGE COMMISSION
                                               WASHINGTON, D.C.          20549


    OFFICE OF

INSPECTOR GEN ERAL




                                           MEMORANDUM

                                                     March 28, 2012


           To:



           From:



           Subject:         SEC's Use of Justifications and Approvals in Sole-Source
                            Contracting, Report No. 507


           This memorandum transmits the U.S. Securities and Exchange Commission
           OIG's final report detailing the results on our audit of the Commission's use of
           justifications and approvals in sole-source contracting. This audit was conducted
           as part of our continuous effort to assess management of the Commission's
           programs and operations and as a part of our annual audit plan.


           The final report contains six recommendations which if fully implemented should
           strengthen �AS' use of justifications and approvals in sole-source contracting.
           OAS concurred with all the recommendations. Your written response to the draft
           report is included in Appendix V.


           Within the next 45 days, please provide the OIG with a written corrective action
           plan that is designed to address the recommendations. The corrective action
           plan should include information such as the responsible official/point of contact,
           timeframes for completing required actions, and milestones identifying how you
           will address the recommendations.




           SEC's Use of Justifications and Approvals in Sole-Source Contracting    March 28, 2012
           Report No. 507
                                                            Page i
Should you have any questions regarding this report, please do not hesitate to
contact me. We appreciate the courtesy and cooperation that you and your staff
extended to our auditor.

Attachment

cc:     James R. Burns, Deputy Chief of Staff, Office of the Chairman
        Luis A. Aguilar, Commissioner
        Troy A. Paredes, Commissioner
        Elisse B. Walter, Commissioner
        Daniel Gallagher, Commissioner
        Jeff Heslop, Chief Operating Officer, Office of Chief of Operations
        Vance Cathell, Deputy Director, Office of Administrative Services




SEC’s Use of Justifications and Approvals in Sole-Source Contracting    March 28, 2012
Report No. 507
                                                Page ii
SEC’s Use of Justifications and Approvals in
Sole-Source Contracting

                               Executive Summary
Background. During his testimony on July 6, 2011, before the House
Transportation and Infrastructure Committee, Subcommittee on Economic
Development, Public Buildings and Emergency Management, the former U. S.
Securities and Exchange Commission’s (SEC or Commission) Inspector General
informed the committee that the Office of Inspector General (OIG) would conduct
an audit of the SEC’s use of justifications and approvals (J&A) in sole-source
contracting. The subject of the hearing was OIG’s investigation regarding the
SEC’s lease for 900,000 square feet of office space at Constitution Center,
costing approximately $556.8 million, for over a 10 year period of time.
Prominent in the leasing investigation was a J&A that was alleged to have been
improperly used to support the Constitution Center’s lease sole-source
contracting action. In addition, the OIG received complaints on the SEC’s use of
J&As. As a result, the OIG conducted this audit based on improprieties that were
found in the leasing investigation and on similar related complaints we received.

A sole-source acquisition is a contract that is entered into or proposed to be
entered into by an agency after soliciting and negotiating with only one source
(vendor). With limited exceptions, a sole-source contract requires a J&A. The
vision of the Federal Acquisition System (FAS), as established in the Federal
Acquisition Regulation (FAR), is to deliver on a timely basis the best value
product or service to the customer, while maintaining the public’s trust and
fulfilling public policy objectives. Best value means that the expected outcome of
the acquisition provides the greatest overall benefit in response to the
government’s requirements. Best value must be viewed from a broad
perspective and is achieved by balancing competing interests in the FAS. One
way the government expects to achieve best value is through competition.
Further, FAS’ policy is to promote competition in the acquisition process.
Therefore, an agency’s decision to limit competition in contracting should be
carefully considered.

FAR § 6.3, Other Than Full and Open Competition, prescribes the policies and
procedures and statutory authorities that must be applied when contracts are not
awarded under full and open competition. FAR §§ 6.302-1 – 6.302-7 permit the
following circumstances for other than full and open competition:

    •   FAR § 6.302-1, Only one responsible source and no other supplies
        or services will satisfy agency requirements
    •   FAR § 6.302-2, Unusual and compelling urgency
SEC’s Use of Justifications and Approvals in Sole-Source Contracting   March 28, 2012
Report No. 507
                                                Page iii
    •   FAR § 6.302-3, Industrial mobilization; engineering, developmental,
        or research capability; or expert services
    •   FAR § 6.302-4, International agreement
    •   FAR § 6.302-5, Authorized or required by statute
    •   FAR § 6.302-6, National security
    •   FAR § 6.302-7, Public interest

The SEC primarily uses three of the aforementioned authorities as justification for
other than full and open competition: FAR § 6.302-1, FAR § 6.302-2, and FAR §
6.302-3, specifically for expert services.

The J&A process is incorporated into the overall contracting process at the SEC.
The Office of Administrative Services (OAS), Office of Acquisitions (OA) is
comprised of a policy branch and four contracting branches that are staffed with
contracting officers and contracting specialists. The branches are broken into the
following specialized areas:

    •   OAS, Office of Human Resources, and Regional Offices,
    •   Enforcement, Office of the Secretary, Other Headquarters Divisions
        and Offices, and Regional Offices,
    •   Information Technology Software, and
    •   Information Technology Infrastructure.

The Commission’s regional offices use outside vendors to acquire goods and
services to support their operations and to help carry out the SEC’s mission.
This is accomplished either through purchases that are made by authorized
government purchase cardholders or through the issuance of legally binding
contractual documents. OAS has delegated senior officials in the regional offices
(i.e., Regional Directors, select Associate Regional Directors, and select legal
counsels) with the authority to enter into and modify contracts with vendors on
behalf of the Commission. These officials have delegated written contracting
authority in the form of warrants (up to $100,000) to procure services limited to
expert witnesses, foreign counsel, depositions, transcripts, courier or process
servers, liens, and other case-related services. Since 2009, OA increased its
training effort to regional office staff on contracting matters.

OA has taken positive steps to increase competition in contracting at the SEC,
which is indicated by significant increases in the contract dollars the agency
competed from fiscal years 2009 to 2011. For example, in fiscal year 2009, the
SEC competed 38.5 percent of the agency’s total obligated contract dollars,
compared to 63.1 percent that was competed across the federal government. In
fiscal year 2010, the SEC competed 52.5 percent of the agency’s total obligated
contract dollars, compared to 65.6 percent that was competed across the federal
government. Finally, in fiscal year 2011, the SEC competed 73.3 percent of the

SEC’s Use of Justifications and Approvals in Sole-Source Contracting   March 28, 2012
Report No. 507
                                               Page iv
agency’s total obligated contract dollars, compared to 63.3 percent that was
competed across the federal government.

Objectives. The overall objective of the audit was to assess SEC’s use of J&As
in contracting. Specific audit objectives were to assess:

    •   OA’s approval processes and procedures for J&As, to include the
        roles of contracting officials and legal counsel;
    •   whether applicable federal statutes and regulations and OA’s
        policies and procedures are followed in preparing and approving
        J&As;
    •   whether J&As are appropriately used under the circumstances
        presented; and
    •   whether the use of J&As has impacted competition.

Results. We found sole-source contracts that were awarded to vendors that did
not have J&As. Further, the contracting officer approved J&As after they were
awarded and J&As were not always signed by the appropriate officials. We
reviewed a sample of 64 sole-source contracts that the SEC awarded in fiscal
years 2009 to 2011, that had a contract value of approximately $10 million. Five
of the 64 sole-source contracts did not have approved, written J&As, as required
per FAR §§ 6.303 and 6.304. These contracts were awarded by a Regional
Director in fiscal year 2011, for case-related services. Further, we found another
3 of the 64 contracts had J&As that were signed by the contracting officer after
the contract was awarded. Finally, OA awarded a contract for $620,000 in 2010,
and the J&A was not signed by the competition advocate. The contract’s amount
exceeded the $550,000 threshold established in FAR§ 6.304, 1 which requires the
competition advocate to sign the J&A before the contract is awarded.

During the audit, we also found that a sole-source contract was awarded using
the authority for “unusual and compelling urgency,” that did not comply with FAR
requirements. The circumstances identified in the J&A supported the use of this
authority; however the contract exceeded the authorized period of performance
allowed under FAR § 6.302-2. OA’s award of this sole-source contract
appropriately used the unusual and compelling urgency authority, but it did not
limit the period of performance as required in FAR § 6.302-2. For sole-source
contracts awarded using the unusual and compelling urgency authority, the
period of performance is limited to the time necessary to perform the urgent work
under the contract, and the time the agency needs to enter into another contract
for the required goods and services through the use of competitive procedures.
This time cannot exceed one year unless the head of the agency determines that
exceptional circumstances apply.


1
 The current threshold is $650,000. At the time the contract was awarded, the threshold was $550,000.
SEC’s Use of Justifications and Approvals in Sole-Source Contracting                       March 28, 2012
Report No. 507
                                               Page v
Additionally, our review of the sole-source contracts that cited FAR § 6.302-3 for
obtaining expert services found that most vendors received multiple contracts
with the SEC, that the typical statements used in the expert witness J&As related
to removing barriers to competition lacked real substance, and that any market
research is limited and informal. The SEC’s selection of expert witnesses is
affected by variables such as witness expertise, availability, willingness to testify
for the SEC, courtroom demeanor, and the trial attorney’s confidence in the
expert witness. Further, the unpredictable timeline of a trial can result in an
unexpected and urgent need for an expert witness. These circumstances tend to
limit the pool of potential witnesses for particular cases. As a result, the SEC
may not be receiving the best value available for all of its expert witness
contracts.

Finally, we found OA’s current internal guidance for preparing J&As is potentially
confusing to its contracting officers and contract specialists who prepare J&As.
Over the past few years OA management has issued various guidance regarding
J&A policy and procedures to its staff. However, based on the various guidance
that has been issued and withdrawn, OA’s contracting officers and contract
specialists indicated confusion about the guidance they should use for
processing J&As. OA needs to clarify what policies and procedures its staff
should follow when processing J&A’s.

Summary of Recommendations. Based on the results of our audit, we
recommend the following:

    (1) The Office of Acquisitions (OA) should review contracting operations at
        the regional office where sole-source contracts were identified having no
        justifications and approvals. OA should further provide training to staff
        involved in the procurement process to ensure they are familiar with
        competition requirements in contracting, when sole-source contracting is
        appropriate and how to properly prepare justifications and approvals.

    (2) The Office of Acquisitions should establish procedures to regularly review
        a sample number of regional office contracts to ensure that their
        contracting practices comply with the Federal Acquisition Regulation and
        Commission regulations and operating procedures.

    (3) The Office of Acquisitions (OA) should review all open sole-source
        contracts awarded using FAR § 6.302-2, Unusual and Compelling
        Urgency, that are over the simplified acquisition threshold, and ensure that
        the contract’s period of performance does not exceed one year. If any
        contract’s period of performance exceeds one year, OA should modify the
        period of performance or obtain required approval from the Chairman for
        exceptional circumstances.

SEC’s Use of Justifications and Approvals in Sole-Source Contracting    March 28, 2012
Report No. 507
                                               Page vi
    (4) The Office of Acquisitions should conduct an assessment on the manner
        in which vendors are chosen as expert witnesses using FAR § 6.302-3, for
        sole-source contracts, and examine whether opportunities exist to expand
        the vendor competition base.

    (5) The Office of Acquisitions should publish comprehensive policies and
        procedures governing the justification and approval process at the
        Commission. This guidance should reflect a thorough analysis of the
        current process to determine if it includes sufficient controls to ensure
        justifications and approvals comply with federal statutes and regulations
        and are appropriately used under the circumstances presented.

    (6) The Office of Acquisitions (OA) should communicate its policies and
        procedures governing the justification and approval process at the
        Commission to contracting officers and contract specialists and provide
        training as necessary. OA should properly notify its staff when previously
        issued OA guidance (policies and procedures) and administrative
        regulations are revised, superseded, or are no longer available for use.




SEC’s Use of Justifications and Approvals in Sole-Source Contracting   March 28, 2012
Report No. 507
                                               Page vii
TABLE OF CONTENTS
Executive Summary ......................................................................................................iii

Table of Contents ....................................................................................................... viii

Background and Objectives ................................................................................ 1
     Background ....................................................................................................... 1
     Objectives .......................................................................................................... 7

Findings and Recommendations
     Finding 1: Sole-Source Contracts Were Awarded Without Proper Support
     Documents and Approval ................................................................................... 8
                  Recommendation 1..................................................................... 10
                  Recommendation 2..................................................................... 11

         Finding 2: Sole-Source Contract Authorized for Unusual and Compelling
         Urgency Exceeded the Authorized Period of Performance .............................. 11
                      Recommendation 3..................................................................... 12

         Finding 3: Expert Services Contracts Are Sourced From a Limited Supply
         of Vendors that Could Potentially be Expanded ............................................... 13
                      Recommendation 4..................................................................... 16

         Finding 4: OA’s Current Guidance on J&As is Potentially Confusing .............. 16
                     Recommendation 5..................................................................... 18
                     Recommendation 6..................................................................... 19

Appendices
    Appendix I: Abbreviations................................................................................ 20
    Appendix II: Scope and Methodology............................................................... 21
    Appendix III: Criteria ......................................................................................... 24
    Appendix IV: List of Recommendations ........................................................... 25
    Appendix V: Management’s Comments ........................................................... 27
    Appendix VI: OIG Response to Management’s Comments.............................. 29

Tables
         Table1: Contract Limits and Required Approval Authority................................ 3
         Table 2: OIG Contract Specialist Interview Results......................................... 17




SEC’s Use of Justifications and Approvals in Sole-Source Contracting                                 March 28, 2012
Report No. 507
                                                     Page viii
Figures
     Figure 1: SEC’s J&A Process............................................................................ 5
     Figure 2: Percentage of Contract Dollars Competed at SEC ............................ 6




SEC’s Use of Justifications and Approvals in Sole-Source Contracting                    March 28, 2012
Report No. 507
                                               Page ix
                     Background and Objectives

Background
During his testimony on July 6, 2011, before the House Transportation and
Infrastructure Committee, Subcommittee on Economic Development, Public
Buildings and Emergency Management, the former U. S. Securities and
Exchange Commission’s (SEC or Commission) Inspector General informed the
committee that the Office of Inspector General (OIG) would conduct an audit of
the SEC’s use of justifications and approvals (J&A) in sole-source contracting.
The subject of the hearing was OIG’s investigation regarding the SEC’s lease for
900,000 square feet of office space at Constitution Center, costing approximately
$556.8 million, for over a 10 year period of time. Prominent in the leasing
investigation was a J&A that was alleged to have been improperly used to
support the Constitution Center’s lease sole-source contracting action. In
addition, the OIG received complaints on the SEC’s use of J&As. As a result, the
OIG conducted an audit based on improprieties that were found in the leasing
investigation and from similar related complaints we received.

A sole-source acquisition is a contract that is entered into or proposed to be
entered into by an agency after soliciting and negotiating with only one source.
With limited exceptions, a sole-source contract requires a J&A. 2 The
Competition in Contracting Act of 1984, as implemented in the Federal
Acquisition Regulation (FAR) Part 6, Competition Requirements, prescribes
policies and procedures that are designed to promote full and open competition
through the use of competitive procedures such as sealed bidding and
competitive proposals.

The vision of the Federal Acquisition System (FAS), as established in the FAR, is
to deliver on a timely basis the best value product or service to the customer,
while maintaining the public’s trust and fulfilling public policy objectives. Best
value means that the expected outcome of the acquisition provides the greatest
overall benefit in response to the government’s requirements. Best value must
be viewed from a broad perspective and is achieved by balancing competing
interests in the FAS. One way the government expects to achieve best value is
through competition. Further, FAS’ policy is to promote competition in the
acquisition process. 3 Therefore, an agency’s decision to limit competition in
contracting should be carefully considered.


2
  A J&A is a written justification for awarding a contract using other than full and open competition. It also
includes the approval of the written justification by the appropriate authorities (See FAR §§ 6.303 and
6.304).
3
  FAR § 1.102.
SEC’s Use of Justifications and Approvals in Sole-Source Contracting                            March 28, 2012
Report No. 507
                                                  Page 1
FAR § 6.3, Other Than Full and Open Competition, prescribes policies and
procedures and identifies the statutory authorities that must be applied when
contracts are not awarded under full and open competition. FAR §§ 6.302-1 –
6.302-7 permit the following circumstances for other than full and open
competition:

    •   FAR § 6.302-1, Only one responsible source and no other supplies
        or services will satisfy agency requirements
    •   FAR § 6.302-2, Unusual and compelling urgency
    •   FAR § 6.302-3, Industrial mobilization; engineering, developmental,
        or research capability; or expert services
    •   FAR § 6.302-4, International agreement
    •   FAR § 6.302-5, Authorized or required by statute
    •   FAR § 6.302-6, National security
    •   FAR § 6.302-7, Public interest

FAR Part 6 Authorities Used at SEC. The SEC primarily uses three of the
aforementioned authorities as justification for other than full and open
competition: FAR § 6.302-1, FAR § 6.302-2, and FAR § 6.302-3, specifically for
expert services.

An agency may use the authority under FAR § 6.302-1 (only one responsible
source) when supplies or services required by the agency are only available from
one responsible source, and no other type of supplies or services will satisfy the
agency’s requirements. Supplies may be deemed available from only the original
source in the case of a follow-on contract for the continued development or
production of a major system or highly specialized equipment when substantial
duplication of cost to the government is not expected to be recovered through
competition, or when unacceptable delays in fulfilling the agency’s requirements
would result. Examples of how the SEC uses this authority include purchasing:
required copyrighted manuals, unique internet-based services related to the
financial markets, and follow-on maintenance agreements for previously acquired
computer software.

An agency may use the authority under FAR § 6.302-2 (unusual and compelling
urgency) when its needs for supplies and services is of such an unusual and
compelling urgency that the government would be seriously injured unless the
agency is permitted to limit the number of sources from which it solicits bids or
proposals. The period of performance for a contract awarded under this authority
is limited to the time necessary to meet the unusual and compelling requirements
of the work to be performed under the contract. This includes the time the
agency needs to enter into another contract for the required goods and services
through the use of competitive procedures. However, this time cannot exceed
one year unless the head of the agency determines that exceptional
circumstances apply. The SEC has used this authority to quickly enter into
SEC’s Use of Justifications and Approvals in Sole-Source Contracting   March 28, 2012
Report No. 507
                                                Page 2
contracts to investigate the May 6, 2010, market break 4 and to fulfill time-
sensitive requirements of the Dodd-Frank Wall Street Reform and Consumer
Protection Act, which was enacted on July 21, 2010.

An agency may use the authority under FAR § 6.302-3 (expert services) when it
requires the use of an expert in litigation or disputes (including reasonably
foreseeable litigation or disputes) involving the government in trials, hearings, or
proceedings before a court, administrative tribunal, or agency, regardless of
whether the expert is expected to testify. This authority is primarily used at the
SEC by the Division of Enforcement (Enforcement) to obtain expert witnesses for
litigation. This authority is also occasionally used for mediation services.

J&A Requirements. Under FAR § 6.303-1, contracts awarded using FAR §§
6.302-1, 6.302-2, and 6.302-3 authority must be supported by written J&As. The
justifications are approved by an appropriate authority and dependent on the
dollar amount of the acquisition, the J&A requirements vary. With the exception
of “unusual and compelling urgency” authority, J&As must be approved before
the contract is awarded. The FAR prescribes the required content of J&As and
the J&A approval levels as shown below in Table1.

                Table 1: Contract Limits and Required Approval
                Authority
                 Proposed Contract Required Approval Authority
                       Amount
                  $650,000 or less                Contracting officer (unless a
                                                  higher approval level is
                                                  established in agency
                                                  procedures)
                  Over $650,000 - $12.5           Competition advocate
                  million
                                                                                         5
                  Over $12.5 million -            Head of the contracting activity
                  $62.5 million
                  Over $62.5 million              Senior procurement executive


                Source: FAR § 6.304

In most cases after awarding a contract under other than full and open
competition, the FAR requires agencies to make the justification publicly
available within 14 days. 6 However, when an agency uses the “unusual and
compelling urgency” exception, the FAR allows the agency 30 days to make the

4
  Also known as the “Flash Crash.” On May 6, 2010, the financial markets experienced a brief but severe
drop in prices, falling more than 5 percent in a matter of minutes, only to recover a short time later.
5
  The Office of Acquisition’s Assistant Director is designated as the head of contracting activity and the
senior procurement executive at SEC.
6
  FAR § 6.305, Availability of the justification.
SEC’s Use of Justifications and Approvals in Sole-Source Contracting                             March 28, 2012
Report No. 507
                                                  Page 3
justification publicly available. Agencies are required to post these justifications
on FedBizOpps 7 unless one of the exceptions in FAR § 5.202 applies.

SEC’s J&A Processes and Procedures. The J&A process is incorporated into
the overall contracting process at the SEC. The Office of Administrative Services
(OAS), Office of Acquisitions (OA) is comprised of a policy branch and four
contracting branches that are staffed with contracting officers and contracting
specialists. The branches are broken into the following specialized areas:

    •   OAS, Office of Human Resources, and Regional Offices,
    •   Enforcement, Office of the Secretary, Other Headquarters Divisions
        and Offices, and Regional Offices,
    •   Information Technology Software, and
    •   Information Technology Infrastructure.

Requests for goods and services are initiated when an office submits a
requisition to OA. Team leaders from the contracting branches review the
requisitions for content and complexity and subsequently assign requisitions to a
contract specialist. The contract specialist processes requisitions, solicitations
and contracts that are awarded by the contracting officers. OA also uses support
contractors to conduct its functions. Goods and services are procured through
competitive and non-competitive orders and contracts, purchase cards, and
interagency agreements.

The Commission’s regional offices acquire goods and services from outside
vendors to support their operations and to help carry out the SEC’s mission. This
is accomplished either through purchases that are made by authorized
government purchase cardholders or through the issuance of legally binding
contractual documents. OAS has delegated senior officials (i.e., Regional
Directors, select Associate Regional Directors, and select legal counsels) in the
regional offices, the authority to enter into and modify contracts with vendors on
behalf of the Commission. These officials have delegated written contracting
authority in the form of warrants (up to $100,000) to procure services limited to
expert witnesses, foreign counsel, depositions, transcripts, courier or process
servers, liens, and other case-related services. OA has provided training to
regional office staff on contracting in various forms. For example, OA conducted
on-site training at the Regional Offices in fiscal years 2009 and 2010. In 2010
and 2012, OA conducted training on contracting and competition at its
Administrative Officer conference. Further, OA conducted training by
teleconference for data entry in PRISM 8 and the Federal Procurement Data



7
  FedBizzOpps, or Federal Business Opportunities, is the Government Point of Entry for publicizing
contracting actions. It is located at www.fbo.gov.
8
  PRISM is the SEC’s automated contract writing tool.
SEC’s Use of Justifications and Approvals in Sole-Source Contracting                       March 28, 2012
Report No. 507
                                               Page 4
System (FPDS). Finally, the SEC’s Insider9 has a section that provides detailed
information on contracting at the Regional Office level.

OA’s J&A process has evolved significantly since 2005 when it was informal and
ad hoc. OA has documented procedures for drafting, reviewing, and approving
J&As at the SEC. On December 29, 2009, OA published the Justification and
Approval Guide, which provides its staff with detailed guidance on J&A
processes and procedures. Further, over the past year the OA Assistant Director
sent emails to her staff to clarify the office’s guidance on processing J&As. OA’s
current J&A procedures are shown below in Figure 1.

    Figure1: SEC’s J&A Process


                                                                                     Step 3: Customer drafts statement of
                                                                                       work (SOW ), assigns Contracting
        Step 1: Customer identifies a need for a         Step 2: Customer
                                                                                        Officer Representative (COR ),
      contract to be awarded without full and open         meets with the
                                                                                      develops Independent Government
       competition , and submits a request to limit      contracting officer /
                                                                                       Cost Estimate (ICGE ), conducts
                    competition to OA .                specialist for approval
                                                                                     market research , and provides input
                                                                                                 for the J & A.




                Step 4: The contracting                                                     Step 6: The customer
                                                       Step 5: The contracting
                officer /specialist drafts                                                    and the contracting
                                                      officer sends draft J & A to
                  J&A and conducts                                                        officer verify the accuracy
                                                      OGC for legal sufficiency
                   additional market                                                      and completeness of the
                                                                review
                research as necessary                                                           J&A, and sign .




                Step 7: The contracting
                                                                                             Step 9: If necessary ,
                     officer obtains                   Step 8: The contract is
                                                                                             the J& A is posted on
                additional signatures as                      awarded
                                                                                                FEDBIZZOPPS
                       necessary




    Source: OIG Generated



Competition in Contracting at SEC. As stated in FAR § 6.501, Section 20 of
the Office of Federal Procurement Policy Act requires the head of each executive
agency to designate a competition advocate. The competition advocate is
responsible for promoting the acquisition of commercial items; promoting full and
open competition; challenging requirements that are not stated in terms of
functions to be performed, performance required or essential physical
characteristics; and challenging barriers to the acquisition of commercial items
and full and open competition. To accomplish these tasks the competition
advocate reviews the agency’s contracting operations, recommends new


9
 The SEC’s Insider is used as a primary internal source of information for SEC personnel.
SEC’s Use of Justifications and Approvals in Sole-Source Contracting                                                    March 28, 2012
Report No. 507
                                                                   Page 5
initiatives, and reports the result to the senior procurement executive. Further,
the competition advocate duties at the SEC include:

     (1) improving the quality of decision making for competition in
         contracting;
     (2) reviewing selected J&As for quality control purposes and
         approving ones for contracts over $650,000;
     (3) reviewing policy affecting competition, to include J&A policy; and
     (4) assessing various types of contracts used at the SEC.

Over the past year, OA has appointed several different staff as competition
advocates. The current competition advocate spends about 25 percent of her
time on competition advocate duties.

OA has taken positive steps to increase competition in contracting at the SEC.
This is indicated by significant increases in the contract dollars the agency
competed from fiscal years 2009 to 2011. 10 For example, as shown in Figure 2,
in fiscal year 2009, the SEC competed 38.5 percent of the agency’s total
obligated contract dollars, compared to 63.1 percent that was competed across
the federal government. In fiscal year 2010, the SEC competed 52.5 percent of
the agency’s total obligated contract dollars, compared to 65.6 percent that was
competed across the federal government. Finally, in fiscal year 2011, the SEC
competed 73.3 percent of the agency’s total obligated contract dollars, compared
to 63.3 percent that was competed across the federal government.

          Figure 2: Percentage of Contract Dollars Competed at SEC
            80
            70
            60
            50
                                                                                          SEC
            40
                                                                                          Fed Govt
            30
            20
            10
             0
                       FY 2009               FY 2010              FY 2011


         Source: Federal Procurement Data System




10
   SEC obligated contract dollars in the amounts of $151 million, $222 million, and $222 million respectively
in fiscal years 2009 through 2011.
SEC’s Use of Justifications and Approvals in Sole-Source Contracting                           March 28, 2012
Report No. 507
                                                 Page 6
Several factors contributed to the increase in contract dollars the SEC competed.
First, the leadership of OA has increased its oversight and scrutiny of J&As in an
effort to improve quality and maximize competition. Further, OA contracting
specialists received continuing education in competition that has been reinforced
by OA’s leadership. The Office of the General Counsel (OGC) has also begun
routinely reviewing and assessing J&A documents for legal sufficiency. Most
importantly, OA has hired several experienced contracting officers and
contracting specialists. The additional staffing and expertise in contracting has
lead to an increase in competitive actions.

Audit Universe of Awarded Sole-Source Contracts
To assess the SEC’s use of J&A in contracting, we developed a statistical
sample of the universe of sole-source acquisitions OA awarded from fiscal years
2009 through 2011, using data from FPDS. See Appendix II, Methodology.


Objectives
Objectives. The overall objective of the audit was to assess SEC’s use of J&As
in contracting. Specific audit objectives were to assess:

    •   OA’s approval processes and procedures for J&As, to include the
        roles of contracting officials and legal counsel;
    •   whether applicable federal statutes and regulations and OA’s
        policies and procedures are followed in preparing and approving
        J&As;
    •   whether J&As are appropriately used under the circumstances
        presented; and
    •   whether the use of J&As has impacted competition.

Where appropriate, OIG will also identify best practices for consideration by
management.




SEC’s Use of Justifications and Approvals in Sole-Source Contracting   March 28, 2012
Report No. 507
                                                Page 7
               Findings and Recommendations

Finding 1: Sole-Source Contracts Were Awarded
Without Proper Support Documents and Approval
        OIG identified sole-source contracts that were awarded to
        vendors that did not have J&As. Further, the contracting
        officer approved/signed J&As after they were awarded and
        J&As were not always signed by the appropriate officials.

We reviewed a sample of 64 sole-source contracts that the SEC awarded during
fiscal years 2009 to 2011, that had a contract value of approximately $10 million.
Five of the 64 sole-source contracts did not have approved, written J&As, though
they were required per FAR §§ 6.303 and 6.304. 11 These contracts were
awarded by a regional office, Regional Director in fiscal year 2011 for case
related services. Further, three contracts from other offices had J&As that were
signed by the contracting officer after the contract was awarded. Finally, OA
awarded a contract for $620,000 in 2010, and the J&A was not signed by the
competition advocate. The contract amount exceeded the $550,000 threshold
that is established in FAR§ 6.304, which requires the competition advocate to
sign the J&A before the contract is awarded. 12

Sole-Source Contracts Without Written Justifications and
Approvals
Using his warrant authority, a Regional Director signed the five sole-source
contracts the OIG identified as not having an approved, written J&A. 13 Two
paralegals from this regional office oversaw the vendor selection process for
three of the contracts. Personnel from this regional office informed the OIG they
were unaware J&As were required and they only had limited training on
contracting procedures. Regional office personnel further indicated that there
were exigent circumstances associated with some contracts, and this drove them
to quickly enter into contracts for items such as process servers and other case-
related services. The paralegal’s rationale for selecting certain vendors included:



11
   There were 14 contracts in the sample that did not have J&As. However, we determined that nine of the
contracts did not require a FAR Part 6 J&A for the following reasons: 1) Four contracts were under the micro
purchase threshold of $3,000; 2) Four contracts used FAR Part 13 simplified procedures; and 3) One
contract was an 8(a) contract that was under $20 million.
12
   The current threshold is $650,000. At the time the contract was awarded, the threshold was $550,000.
13
   OIG met with representatives from the regional office on January 31, 2012.
SEC’s Use of Justifications and Approvals in Sole-Source Contracting                         March 28, 2012
Report No. 507
                                                 Page 8
     •   Defendants in Commission litigation chose the vendors and the
         regional office had no part in the selection;
     •   The vendors selected were preferred over other possible vendors;
     •   In the past, regional staff had problems with certain vendors, so
         they routinely tend to request preferred companies they work best
         with.

We determined the five contracts in question should have either been competed
or an authorized contracting official should have approved and signed J&As for
the contracts prior to the contracts being awarded. OA coded the contracts in
FPDS by using the authority under FAR § 6.302-3 for expert services. Based on
circumstances presented by the regional office staff, such as situations where the
regional office had no choice in selecting a vendor, we determined that FAR §
6.302-1 for “only one responsible source” was the more appropriate authority that
should have been used. In all other cases, the contracts should have been
opened to competition because they did not meet the requirements of the FAR §
6.302 authorities for other than full and open competition.

Awarding a sole-source contract without proper J&A is a violation of FAR §
6.303-1 and the Competition in Contracting Act of 1984 14 which requires that
contracting officers not commence negotiations for sole-source contracts,
commence negotiations for contracts resulting from unsolicited proposals, or
award any other contract without providing for full and open competition, unless
the contracting officer justifies the use of such actions in writing (if required in
FAR § 6.302), certifies the accuracy and completeness of the justification, and
obtains the approval required by FAR § 6.304.

Further, this practice unnecessarily limits competition and restricts vendor’s
access to federal contracting opportunities. Competition provides the best
assurance that the government receives a fair and reasonable price and obtains
the most comprehensive input on technical aspects of the various methods work
can best be performed.

Contracting Officer Signed J&As After Award
For three contracts we reviewed, the contracting officer did not sign the J&A
before the contract was awarded. All of the contracts involved were sole-source
awards that used the expert services authority. For one contract awarded in
2010, the contracting officer signed the original J&A before the contract was
awarded. However, the J&A was subsequently revised and the contracting
officer did not certify, approve, and sign the updated J&A before the contract was
awarded. The two remaining contracts were awarded in 2009. In both cases, a
sole-source contract was awarded for an expert witness before the contracting

14
  43 U. S. Code § 253.
SEC’s Use of Justifications and Approvals in Sole-Source Contracting     March 28, 2012
Report No. 507
                                                Page 9
officer certified, approved, and signed the J&A. In 2011, our sample found no
instances where the contracting officer signed a J&A after the contract was
awarded.

The mandatory information contained in the J&A 15 requires the technical
representative and the contracting officer to scrutinize their claim that competition
should be limited for a particular acquisition. Certification and approval of a J&A
after a contract is awarded indicates that this analysis is not timely; therefore the
acquisition may be flawed. When sole-source contracts are awarded prior to the
approval of a J&A, OA cannot properly demonstrate that it determined the prices
were fair and reasonable or that it received the best possible value for the goods
and services acquired.

J&As Not Always Signed at the Appropriate Level
One sole-source contract we reviewed was awarded without the proper J&A
because it was not signed by the competition advocate. This contract was
awarded for expert services in 2010, for $620,000. This amount was above the
$550,000 threshold established by FAR § 6.304. At the time of the contract’s
award the competition advocate should have signed the J&A.

The competition advocate’s role is to ensure that competition is maximized in the
agency by challenging any unnecessary restrictions on competition. When the
competition advocate does not review and approve J&As when required, one of
the agency’s tools to promote competition is negated.

Failure to execute an appropriately signed J&A prior to contract award may
indicate a lack of training and/or insufficient internal controls to ensure
compliance with federal regulations and Commission policies and procedures.

     Recommendation 1:

     The Office of Acquisitions (OA) should review contracting operations at the
     regional office where sole-source contracts were identified having no
     justifications and approvals. OA should further provide training to staff
     involved in the procurement process to ensure they are familiar with
     competition requirements in contracting, when sole-source contracting is
     appropriate and how to properly prepare justifications and approvals.

     Management Comments. OAS concurred with this recommendation. See
     Appendix V for management’s full comments.



15
  FAR § 6.303-2
SEC’s Use of Justifications and Approvals in Sole-Source Contracting    March 28, 2012
Report No. 507
                                               Page 10
    OIG Analysis. We are pleased that OAS concurred with this
    recommendation.

    Recommendation 2:

    The Office of Acquisitions should establish procedures to regularly review a
    sample number of regional office contracts to ensure that their contracting
    practices comply with the Federal Acquisition Regulation and Commission
    regulations and operating procedures.

    Management Comments. OAS concurred with this recommendation. See
    Appendix V for management’s full comments.

    OIG Analysis. We are pleased that OAS concurred with this
    recommendation.


Finding 2: Sole-Source Contract Authorized for
Unusual and Compelling Urgency Exceeded the
Authorized Period of Performance
        A sole-source contract awarded using the authority for
        “unusual and compelling urgency” did not comply with FAR
        requirements. The circumstances identified in the J&A
        supported the use of this authority; however the contract
        exceeded the authorized period of performance allowed
        under FAR § 6.302-2.

OA awarded a sole-source contract on June 14, 2010, using FAR’s “unusual and
compelling urgency” authority. The contract’s period of performance was from
June 14, 2010 to June 13, 2013, and the initial contract value was $250,000,
which exceeded the simplified acquisition $150,000 threshold. This contract was
modified four times and its current value is now $1,500,000. The objective of the
contract is to have the vendor conduct an investigation related to the May 6,
2010, market break and determine:

    (1) to the extent possible, what events precipitated or contributed to the
        market break; and
    (2) what the features of market design and market participant behavior
        may have propagated or amplified the event.

OA’s award of this sole-source contract appropriately used the unusual and
compelling urgency authority, but it did not limit the period of performance for
acquisitions that exceed the simplified threshold as required in FAR § 6.302-2.
SEC’s Use of Justifications and Approvals in Sole-Source Contracting    March 28, 2012
Report No. 507
                                               Page 11
For sole-source contracts awarded using the unusual and compelling urgency
authority, the contract’s period of performance is limited to the time necessary to
meet the unusual and compelling requirements of the work to be performed
under the contract. This includes the time the agency needs to enter into another
contract for the required goods and services through the use of competitive
procedures. However, this time cannot exceed one year unless the head of the
agency determines that exceptional circumstances apply.

We concluded that the period of performance on the contract in question should
not have exceeded one year, unless the SEC Chairman determined that
exceptional circumstances applied and approved the request. However, there is
no evidence in the contract file that supports that the Chairman made this
determination. Because this was not done, the SEC inappropriately limited
competition for follow-on work related to this contract. Therefore, OA cannot
assure that the cost of the follow-on work was reasonable or the SEC received
the best value for services rendered.

    Recommendation 3:

    The Office of Acquisitions (OA) should review all open sole-source contracts
    awarded using FAR § 6.302-2, Unusual and Compelling Urgency, that are
    over the simplified acquisition threshold, and ensure that the contract’s period
    of performance does not exceed one year. If any contract’s period of
    performance exceeds one year, OA should modify the period of performance
    or obtain required approval from the Chairman for exceptional circumstances.

    Management Comments. OAS concurred with this recommendation. See
    Appendix V for management’s full comments.

    OIG Analysis. We are pleased that OAS concurred with this
    recommendation.




SEC’s Use of Justifications and Approvals in Sole-Source Contracting    March 28, 2012
Report No. 507
                                               Page 12
Finding 3: Expert Services Contracts Are
Sourced From a Limited Supply of Vendors that
Could Potentially be Expanded
        Our review of sole-source contracts that cited FAR § 6.302-3
        for expert services, found that: most vendors received
        multiple contracts with the SEC, typical statements in the
        expert witness J&As about removing barriers to competition
        lacked real substance, and market research is limited and
        informal.

Enforcement is OA’s primary customer for sole-source expert services contracts.
Enforcement uses these contracts to hire expert witnesses in support of SEC
litigation.

Some Vendors for Expert Services Contracts Have Multiple SEC
Contracts
Of the sole-source contracts we reviewed, 27 of 64 (42 percent) were awarded
as “expert services” contracts. Of these 27 contracts, 21 (78 percent) were
awarded to vendors that received at least two SEC contracts during fiscal years
2009 through 2011. Some vendors received more than two SEC contract
awards during this period. For the three year period, we found:

    •   Two vendors were awarded seven contracts; each vendor’s total
        contracts were valued at over $2.2 million and $1.3 million,
        respectively.
    •   Two vendors were awarded five contracts; each vendor’s total
        contracts were valued at over $2.7 million and $246,000
        respectively.
    •   Three vendors were awarded four contracts; each vendor’s total
        contracts were valued at over $1 million, $890,000, and $217,000,
        respectively.

Vendors are generally awarded multiple expert services contracts with the SEC.
The opportunity for new entrants to break into this opportunity is thereby limited.
Therefore, the SEC may not be receiving the best value for its expert services
contracts.

Language in Expert Services J&As Lacks Substance
After reviewing and analyzing numerous J&As we determined that some
language in the expert services J&As regarding “removing barriers to
SEC’s Use of Justifications and Approvals in Sole-Source Contracting    March 28, 2012
Report No. 507
                                               Page 13
competition,” lacked real substance. 16 For example, paragraph 10 of the J&A
states “a listing of sources, if any that expressed, in writing an interest in the
acquisition.” OA’s typical response was “A listing of sources that express an
interest in actions under this J&A will be maintained in the applicable contract
files.” Paragraph 6 of the J&A states, “Efforts to ensure that offers are solicited
from as many potential sources as possible.” Most of the expert services J&As
we reviewed cited FAR § 5.202 (a) (14), as exempting the SEC from publicizing
the action. We determined that it was unlikely that potential vendors would
express an interest in writing to the SEC if the action is not publicized in
FedBizOpps.

Further, paragraph 11 of the J&A states “A statement of the actions, if any, the
agency may take to remove or overcome any barriers to competition before any
subsequent acquisition for the supplies or services required” and OA’s typical
response was “The Commission’s requirements are ongoing and the SEC will
continue to survey potential experts for similar services.”

The standard language found in many sections of the expert services J&As does
not encourage the type of analysis that will truly remove barriers to competition in
expert services contracting at the SEC. Therefore, the SEC does not obtain the
benefits of competition in this category of contracts.

Market Research is Limited and Informal
Enforcement maintains a database (Word document) consisting of expert
witnesses that are available for contracting services by various subject areas
such as insider trading cases, broker-dealer issues, municipal bond fraud, etc.
According to Enforcement’s Acting Deputy Managing Executive, the list is
updated when:

     •   individuals contact Enforcement and express an interest in doing
         expert services work for the SEC;
     •   staff in Enforcement’s Trial Unit network with expert witnesses they
         meet during cases;
     •   Enforcement reaches out to trusted firms; and
     •   the Division conducts limited market research.

The Acting Deputy Managing Executive pointed out that for some expert
services, there is a very small community of available resources and many
vendors do not want to testify for the SEC. Also, Enforcement’s Trial Unit does
not want to reveal its litigation strategy, so the search for an expert is often
conducted confidentially by limiting queries to trusted associates.


16
  FAR § 6.303-2 requires the J&A to address 12 areas.
SEC’s Use of Justifications and Approvals in Sole-Source Contracting    March 28, 2012
Report No. 507
                                               Page 14
FAR § 10.001 requires agencies to conduct market research before soliciting
acquisition offers above the simplified acquisition threshold, and for acquisitions
below the simplified acquisition threshold when adequate information is not
available and the circumstances justify its cost. The extent of market research
varies depending on factors such as urgency, estimated dollar value, complexity
and past experience. The contracting officer may use market research
conducted within the last 18 months before awarding a task order or delivery
order, if the information is still current, accurate, and relevant.

Our review found SEC’s expert services J&As show limited and informal market
research. In 22 percent of the J&As we reviewed, the J&A indicated no market
research was conducted before the contract was awarded. For example, one
J&A stated that a “market survey was not conducted because it would not be
appropriate in litigation to announce the Commission’s goals in its search for an
expert.” With few exceptions, the remaining expert services J&As we reviewed
illustrated that only limited, informal market research was conducted among
experts who were already known to the SEC. For example, one J&A stated,
“The staff considered three experts . . . . The staff also reviewed lists of potential
experts located on EnforceNet, 17 as well as a list of experts the SEC has used
within the past three years.” None of these solicitations were publicized.

The informal market research conducted for expert services contracts limits the
pool of potential vendors for expert services. Therefore, the SEC may not be
receiving best value for its expert services contracts.

SEC’s Expert Witness Selection Process Variables
The SEC’s selection of expert witnesses is affected by variables such as witness
expertise, availability, willingness to testify for the SEC, court room demeanor,
and the trial attorney’s confidence in the expert witness. Though these
characteristics are subjective in nature, they may be valid. Further, the
unpredictable timeline of a trial can result in an unexpected and urgent need for
an expert witness. Also, the timeline of a trial is generally not controlled by
Enforcement’s Trial Unit, so the need for an expert witness can be unexpected
and urgent. These circumstances tend to limit the pool of potential witnesses for
a particular case.

Once a trial has begun, the desire to keep the litigation strategy confidential
precludes the SEC from openly soliciting expert witnesses. In these instances,
Enforcement does not conduct additional market research or informal research
as was illustrated in our J&A review.



17
  EnforceNet is the Division of Enforcement’s intranet.
SEC’s Use of Justifications and Approvals in Sole-Source Contracting      March 28, 2012
Report No. 507
                                               Page 15
The SEC’s approach to selecting certain expert witnesses is impacted by its
current operational concerns, and there is a limited supply of known experts in
certain areas. The culmination of these circumstances restricts the opportunity
for new vendors to enter into this contracting opportunity. As a result, the SEC
may not be receiving the best value available for all its expert witness contracts.

    Recommendation 4:

    The Office of Acquisitions should conduct an assessment on the manner in
    which vendors are chosen as expert witnesses using FAR § 6.302-3, for sole-
    source contracts, and examine whether opportunities exist to expand the
    vendor competition base.

    Management Comments. OAS concurred with this recommendation. See
    Appendix V for management’s full comments.

    OIG Analysis. We are pleased that OAS concurred with this
    recommendation.


Finding 4: OA’s Current Guidance on J&As is
Potentially Confusing
        OA’s current internal guidance for preparing J&As is
        potentially confusing to contracting officers and contract
        specialists who prepare J&As.

OA’s J&A Guidance
Over the past few years OA management has issued various guidance regarding
J&A policy and procedures to its staff. Specifically, on December 29, 2009, OA
issued internal J&A guidance to its staff in the Justification and Approval Guide.
This guide is posted on the SEC’s Insider as an Acquisition Policy Newsflash.
On July 8, 2011, the Head of the Contracting Activity (HCA) sent an email to OA
staff that was described as written policy for J&As and throughout the year the
HCA sent additional guidance related to J&As via emails to OA staff. In
December 2011, OAS published Securities and Exchange Commission
Regulation (SECR) 10-21, Restricting Competition for SEC Acquisitions, which
provided guidance on the use and preparation of J&As in contracting at the SEC.
Subsequently, SECR 10-21 was removed from SEC’s internal site and is
currently under further review.




SEC’s Use of Justifications and Approvals in Sole-Source Contracting    March 28, 2012
Report No. 507
                                               Page 16
We found OA’s Justification and Approval Guide conflicts with the HCA’s emails
as follows:

        The Justification and Approval Guide specifies that

             •   the project manager (technical representative or end user) is
                 responsible for preparing the J&A; and
             •   OGC will review all J&As.

        The HCA’s emails

             •   designate the contracting officer/contract specialist
                 responsible for preparing J&As;
             •   indicate OGC will sign all J&As.
             •   add a requirement that the technical representative submit a
                 request to limit competition that is not included in the guide.
             •   specifies that the contract specialist will add their own
                 additional market research to the J&A. Note: the Justification
                 and Approval Guide does not have this requirement.

Contract Specialist Interview Results. As shown in Table 2, OIG interviews
with 16 contract specialists assigned to OA had the following results:

        Table 2: OIG Contract Specialist Interview Results
         Number of Contract                     OIG Interview Results
            Specialists
                Six                  Indicated SECR 10-21 was the guidance
                                     they used to process J&As, even though
                                     OA withdrew it as an active regulation in
                                     December, 2011
                  Seven              Indicated the HCA’s emails were the
                                     prevailing J&A guidance.
                   One               Indicated OA’s J&A Guide is the
                                     prevailing J&A guidance.
                   Two               Were unaware of any current internal
                                     guidance and refer to J&A examples and
                                     the FAR to process J&As.
       Source: OIG Generated

Further, a consistent comment contract specialist relayed to OIG was that the
HCA had sent out several emails related to processing J&As and the guidance
needs to be clarified regarding what policies and procedures they are required to
follow when processing J&A’s.



SEC’s Use of Justifications and Approvals in Sole-Source Contracting             March 28, 2012
Report No. 507
                                               Page 17
OA’s J&A Policies and Procedures. Internal controls 18 (e.g., the organization’s
policies, procedures, etc.) are tools that can be used to help management
achieve results and safeguard the integrity of their programs. The objectives of
internal control include:

     (1) effectiveness and efficiency of operations;
     (2) reliability of financial reporting; and
     (3) compliance with applicable laws and regulations.

Internal controls are built on five standards: control environment; risk
assessment; control activities; information and communications; and monitoring.
The fourth standard (information and communications) asserts that information
should be communicated to relevant personnel at all levels within an
organization. The information should be relevant, reliable, and timely. Confusing
J&A policy guidance is contrary to this standard and may result in the contracting
staff’s failure to comply with the laws and regulations that govern SEC’s use of
J&As in contracting.

     Recommendation 5:

     The Office of Acquisitions should publish comprehensive policies and
     procedures governing the justification and approval process at the
     Commission. This guidance should reflect a thorough analysis of the current
     process to determine if it includes sufficient controls to ensure justifications
     and approvals comply with federal statutes and regulations and are
     appropriately used under the circumstances presented.

     Management Comments. OAS concurred with this recommendation. See
     Appendix V for management’s full comments.

     OIG Analysis. We are pleased that OAS concurred with this
     recommendation.




18
  OMB Circular A-123, Management’s Responsibility for Internal Controls.
SEC’s Use of Justifications and Approvals in Sole-Source Contracting       March 28, 2012
Report No. 507
                                               Page 18
    Recommendation 6:

    The Office of Acquisitions (OA) should communicate its policies and
    procedures governing the justification and approval process at the
    Commission to contracting officers and contract specialists and provide
    training as necessary. OA should properly notify its staff when previously
    issued OA guidance (policies and procedures) and administrative regulations
    are revised, superseded, or are no longer available for use.

    Management Comments. OAS concurred with this recommendation. See
    Appendix V for management’s full comments.

    OIG Analysis. We are pleased that OAS concurred with this
    recommendation.




SEC’s Use of Justifications and Approvals in Sole-Source Contracting   March 28, 2012
Report No. 507
                                               Page 19
                                                                            Appendix I


                                          Abbreviations

                   CICA                 Competition in Contracting Act of
                                        1984
                   COSO                 Committee of Sponsoring
                                        Organizations of the Treadway
                                        Commission
                   Enforcement          Division of Enforcement
                   FAR                  Federal Acquisition Regulation
                   FAS                  Federal Acquisition System
                   FedBizOpps           Federal Business Opportunities
                   FPDS                 Federal Procurement Data System
                   HCA                  Head of Contracting Activity
                   J&A                  Justification and Approval
                   OA                   Office of Acquisitions
                   OAS                  Office of Administrative Services
                   OGC                  Office of General Counsel
                   OIG                  Office of Inspector General
                   SEC or               U. S. Securities and Exchange
                   Commission           Commission
                   SECR                 Securities and Exchange
                                        Commission Regulation
                   USC                  United States Code




SEC’s Use of Justifications and Approvals in Sole-Source Contracting        March 28, 2012
Report No. 507
                                               Page 20
                                                                       Appendix II


                           Scope and Methodology

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Scope. Our audit focused on OA’s policy and procedures for processing J&As at
SEC. In addition, we reviewed sole-source contracts with J&As in our scope of
fiscal years 2009 through 2011. Further, we considered federal law, federal
regulations, and SEC policies and procedures that pertain to contracting. We
conducted our fieldwork from November 2011 to February 2012.

Methodology. To meet the objectives of assessing (1) OA’s approval processes
and procedures for J&As, to include the role of contracting officials and legal
counsel, and (2) whether applicable federal statutes and regulation and OA’s
policies and procedures are followed in approving J&As, we gained familiarity
with federal contracting law, federal contracting regulations, and SEC policies
and procedures related to contracting and J&As. In addition, we conducted a
walk-through of OA’s J&A approval process, interviewed key personnel, and
collected supporting documentation. We also developed a statistical sample of
sole-source contracts that were awarded during fiscal years 2009 to 2011,
obtained and reviewed contracting documents to include J&As, and conducted
testing to ensure compliance with federal laws, regulations, and the SEC policies
and procedures.

To meet the objective of determining whether J&As were appropriately used
under the circumstances presented, we identified the universe of J&A and
conducted a review on a sample number (see the Statistical Sampling section)
using a standard template and compared the assertions of the J&A to the facts
presented in the contract file. In cases where we found anomalies we conducted
interviews with personnel involved in the contracting action. In addition, we
analyzed the results of testing to understand trends in sole-source contracting
and followed up with customers and contracting officials.

Finally, to meet the objective of assessing the impact of J&As on competition at
the SEC, we used FPDS to developed comparative statistics on contract dollars
competed at the SEC and across the federal government as a whole. We also
interviewed the Commission’s competition advocate and reviewed the SEC’s
Competition Advocate Report for fiscal years 2009 through 2011.

SEC’s Use of Justifications and Approvals in Sole-Source Contracting   March 28, 2012
Report No. 507
                                               Page 21
                                                                                      Appendix II


Internal Controls. The Internal Control—Integrated Framework, published by
the Committee of Sponsoring Organizations of the Treadway Commission
(COSO), provides a framework for organizations to design, implement, and
evaluate controls that facilitate compliance with federal laws, regulations, and
program compliance requirements. 19 For this audit, we based our assessment of
OA’s internal controls that were significant to the audit objectives on the COSO
framework, including control environment, risk assessment, control activities,
information and communication, and monitoring. Among the internal controls
that we assessed were OA’s controls related to processing J&As, the annual risk
assessment for the Federal Manager’s Financial Integrity Act assurance
statement, 20 OA’s policies and procedures in place to meet its objectives, and
OA’s internal communication process.

Use of Computer-Processed Data. We determined the best way to generate a
list of sole-source contracts likely to have a J&A for this audit was to use the
USASpending website. 21 USASpending receives contract data from FPDS daily.
Per FAR § 4.606, agencies are required to report all contract data over the micro-
purchase threshold, or $3,000, to FPDS. Therefore, USASpending should
provide a complete listing of contract actions since it regularly receives data
updates from FPDS. Since the audit objectives required the review of contracts
and associated J&As, the primary concern was that the information systems
generate an accurate list of sole-source contracts. To test this, we conducted
basic existence and completeness testing using a list from OA’s contract file
room. The results of the completeness and existence testing gave us reasonable
assurance that the data from USASpending/FPDS is sufficient to generate an
accurate list of sole-source contracts for this audit.

Statistical Sampling. To review the SEC’s use of J&A in contracting the OIG
used USASpending/FPDS to generate all contracts awarded during fiscal years
2009 through 2011. Subsequently, we selected contracts that were not
competed and eliminated duplicates. The result was an audit universe of 454
sole-source contracts. We then used the EZ Quant Statistical Analysis Audit tool
to generate a statistical sample of 64 contracts. The sample was designed to
project rates of occurrence with 90 percent confidence that the point estimate is
within ± 5 percent of the audit universe.




19
   Committee of the Sponsoring Organizations of the Treadway Commission, Internal Control – Integrated
Framework (1992).
20
   Federal Manager’s Financial Integrity Act of 1982.
21
   http://www.usaspending.gov/
SEC’s Use of Justifications and Approvals in Sole-Source Contracting                   March 28, 2012
Report No. 507
                                             Page 22
                                                                       Appendix II


Prior Coverage. OIG reviewed improper actions related to the leasing of office
space where an inappropriately backdated J&A was prominent. In another
review, we examined a sole-source contract that was awarded prior to the J&A
being signed. Further, this J&A was not approved by the competition advocate
though it exceeded the dollar threshold required for the competition advocate’s
review.




SEC’s Use of Justifications and Approvals in Sole-Source Contracting   March 28, 2012
Report No. 507
                                               Page 23
                                                                       Appendix III


                                             Criteria
41 United States Code (USC) § 253. Also known as the Competition in
Contracting Act of 1984 (CICA). Section 253 is the statutory authority for
competition requirements in federal contracting. It is the source of law for the
FAR Part 6 – Competition Requirements. The section outlines the exceptions by
which a federal agency may use noncompetitive procedures in procurement and
the J&As that must be included.

FAR Part 6 – Competition Requirements. Prescribes policies and procedures
to promote full and open competition in the acquisition process and to provide for
full and open competition, full and open competition after exclusion of sources,
other than full and open competition, and competition advocates. Further, it
specifies the requirements for J&As.

FAR Part 2 – Definitions. This part: (1) defines words and terms that are
frequently used in the FAR; (2) provides cross-references to other definitions in
the FAR of the same word or term; and (3) provides for the incorporation of these
definitions in solicitations and contracts by reference.

FAR Part 5 – Publicizing Contract Actions. Prescribes policies and
procedures for publicizing contract opportunities and award information.

FAR Part 10 – Market Research. Prescribes policies and procedures for
conducting market research to arrive at the most suitable approach to acquiring,
distributing, and supporting supplies and services.

SECR 10-02, SEC Contracting Authorities and Appointments. Establishes
uniform policies and procedures for the acquisition of products and services for
the SEC. It also describes the delegation of authority and accountability for the
management of acquisition functions performed on behalf of the Chairman.

SEC’s Justification and Approval (J&A) Guide. Issued by the Policy,
Oversight & Acquisitions Branch of the Office of Acquisitions on 12/29/2009 to
provide guidance and procedures for developing J&As that are adequate and
complete.

OMB Circular A-123, Management’s Responsibility for Internal Control.
Establishes that management has a fundamental responsibility to develop and
maintain effective internal control.




SEC’s Use of Justifications and Approvals in Sole-Source Contracting   March 28, 2012
Report No. 507
                                               Page 24
                                                                       Appendix IV


                         List of Recommendations

Recommendation 1:

The Office of Acquisitions (OA) should review contracting operations at the
regional office where sole-source contracts were identified having no
justifications and approvals. OA should further provide training to staff involved
in the procurement process to ensure they are familiar with competition
requirements in contracting, when sole-source contracting is appropriate and
how to properly prepare justifications and approvals.

Recommendation 2:

The Office of Acquisitions should establish procedures to regularly review a
sample number of regional office contracts to ensure that their contracting
practices comply with the Federal Acquisition Regulation and Commission
regulations and operating procedures.

Recommendation 3:

The Office of Acquisitions (OA) should review all open sole-source contracts
awarded using FAR § 6.302-2, Unusual and Compelling Urgency, that are over
the simplified acquisition threshold, and ensure that the contract’s period of
performance does not exceed one year. If any contract’s period of performance
exceeds one year, OA should modify the period of performance or obtain
required approval from the Chairman for exceptional circumstances.

Recommendation 4:

The Office of Acquisitions should conduct an assessment on the manner in which
vendors are chosen as expert witnesses using FAR § 6.302-3, for sole-source
contracts, and examine whether opportunities exist to expand the vendor
competition base.

Recommendation 5:

The Office of Acquisitions should publish comprehensive policies and procedures
governing the justification and approval process at the Commission. This
guidance should reflect a thorough analysis of the current process to determine if
it includes sufficient controls to ensure justifications and approvals comply with
federal statutes and regulations and are appropriately used under the
circumstances presented.



SEC’s Use of Justifications and Approvals in Sole-Source Contracting   March 28, 2012
Report No. 507
                                               Page 25
                                                                       Appendix IV


Recommendation 6:

The Office of Acquisitions (OA) should communicate its policies and procedures
governing the justification and approval process at the Commission to contracting
officers and contract specialists and provide training as necessary. OA should
properly notify its staff when previously issued OA guidance (policies and
procedures) and administrative regulations are revised, superseded, or are no
longer available for use.




SEC’s Use of Justifications and Approvals in Sole-Source Contracting   March 28, 2012
Report No. 507
                                               Page 26
                                                                                Appendix V


                         Management’s Comments




                                           MEMORANDUM




 TO:             Jacqueline Wilson, Assistant Inspector General for Audits, Office of
                 Inspector General

 FROM:           Jayne L Seidman, Acting        ��
                                                 XA :_1
                                                       Jf��
                                                                       ........_ __....
                                                                      ....

                                                                          tv    e   ces

 SUBJECT:        The SEC's Use of Justlncatlons and Approvals in Sole-Source
                 Contracting, "Report No. 507

 DATE:           March 23, 2012

·Thls memorandum is in response to the Office of Inspector General's (OIG) Draft
 Report No. 507, titled The SEC's Use of Justlncations and Approvals in Sole-Source .
 Contracting. Thank you for the opportunity to review and respond to this report    .




 OIG Recommendation 1. The Office of Acquisitions (OA) should review contracting
 operations at the regional office where sole-source contracts were identified having no
justifications and approvals. OA should further provide training to staff involved in the
procurement process to ensure they aI'S familiar with competition requirements In
contracting. when so/e-source contracting is appropriate and how to properly prepare
justifications and approvals.

 The Office of Administrative Services (OAS) concurs. The Office of Acquisitions will
 review contracting operations in that regional office and provide training to staff involved
in the procurement process to ensure that they are familiar with competition
requirements, when sole-source contracting is appropriate, and how to properly prepare
justifications and approvals.


OIG Recommendation 2. The Off      ICe of Acquisitions should establish procedures to
regularly review a sample number of regional office contracts to ensure that their
contracting practices comply with the Federal Acquisition Regulation end Commission
regulations and operating procedures.

OAS concurs. OA is reviewing a ·sample of regional office contracts for compliance with
the acquisition policies, incfuding the Federal Acquisition Regulation and Commission
regulations and operating procedures. OA will implement a process whereby in the
future OA reviews a sample of new regional office contracts quarterly.


OIG Recommendation 3: The Office of Acquisitions (OA) should review all open sole­
source contracts awarded using FAR § 6.302-2, Unusual and Compelling Urgency. that
are over the simplified acquisition threshold. and ensure that the contract's period of
performance does not exceed one year. If any contract's period. of performance




SEC’s Use of Justifications and Approvals in Sole-Source Contracting           March 28, 2012
Report No. 507
                                               Page 27
                                                                               Appendix V




 exceeds one year, OA should modify the period of performance or obtain required
 approval from the Chairman for exceptional circumstances.

  OAS concurs. For the contract mentioned in the IG's report, OA has begun corrective
  action by completing a modification correcting the period of performance to reflect the
  actual work period, June 14, 2010 to March 8, 2011, and officially closing the contract.
. OA is also reviewing other open sole source contracts awarded under the authority of
  FAR § 6.302-2, Unusual and Compelling Urgency. For any such contract found to
  reference a period of performance exceeding one year, OA will take appropriate
  corrective actions.


 OIG Recommendation 4. The Office of Acquisitions should conduct an assessment on
 the manner in which vendors are chosen as expert witnesses using FAR § 6.302-3, for
 sole-source contracts, and examine whether opportunities exist to expand the vendor
                                                                               .
 competition base.

 OAS concurs. OA is assessing the current processes used for choosing expert
 witnesses and is working with technical and requirements staff to formalize
 improvements to expand the vendor competition base.


 OIG Recommendation 5. The Office of Acquisitions should publish comprehensive
 policies and procedures governing the justification and approval process at the
 Commission. This guidance should reflect a thorough analysis of the current process to
 determine if it includes sufficient controls to ensure justifications and approvals comply
 with federal statutes and regulations and are appropriately used under the
 circumstances presented.

OAS concurs. OA will publish comprehensive policies and procedures governing the
justification and approval process, and will assure that the procedures include sufficient
controls to ensure the justification and approvals are used appropriately under the
circumstances presented, and to ensure compliance with federal statutes and
regulations.

 OIG Recommendation 6. The Office of Acquisitions should communicate its poliCies
 and procedures governing the justification and approval process at the Commission to
 contracting officers and contract specialists and provide training as necessary. OA
 should properly notify its staff when previously issued OA guidance (policies and
 procedures) and administrative regulations are revised, superseded, or are no longer
 available for use.

OAS concurs. OA will communicate its revised policies and procedures governing the
justification and approval process to contracting officers and contract specialists, and
will provide training as necessary. Further, OA will establish a procedure to assure staff
is notified of changes to OA policies, procedures, and administrative regulations.




SEC’s Use of Justifications and Approvals in Sole-Source Contracting          March 28, 2012
Report No. 507
                                               Page 28
                                                                       Appendix VI


       OIG Response to Management’s Comments

OIG is pleased that OAS concurred with all of the report’s recommendations. We
are also encouraged that OAS has indicated that it intends to take prompt action
to address the deficiencies we identified in the report.

We believe that fully implementing all of our recommendations will significantly
enhance the efficiency and effectiveness of OAS in connection with its important
work of awarding contracts for goods and services at the SEC.




SEC’s Use of Justifications and Approvals in Sole-Source Contracting   March 28, 2012
Report No. 507
                                               Page 29
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
